No. 19A640

IN THE

Supreme Court of the @lniteb States
DONALD J. TRUMP; DONALD J. TRUMP, JR.; ERIC TRUMP; IVANKA TRUMP; DONALD J.
TRUMP REVOCABLE TRUST; TRUMP ORGANIZATION, INC.; TRUMP ORGANIZATION LLC;
DJT HOLDINGS LLC; DJT MANAGING MEMBER LLC; TRUMP ACQUISITION LLC; TRUMP
ACQUISITION, CORP.,

Applicants,
V.

DEUTSCHE BANK AG; CAPITAL ONE FINANCIAL CORPORATION; COMMITTEE ON
FINANCIAL SERVICES OF THE UNITED STATES HOUSE OF REPRESENTATIVES;
PERMANENT SELECT COMMITTEE ON INTELLIGENCE OF THE UNITED STATES HOUSE OF
REPRESENTATIVES,

Respondents.
On Application for Recall and Stay
From the United States Court of Appeals for the Second Circuit
CERTIFICATE OF SERVICE

I, Jennifer S. Windom, a member of the Bar of this Court, hereby certify that
on this 11th day of December, 2019, I caused to be served by overnight carrier one
copy of the Opposition to Emergency Application to Recall and Stay the Mandate on
each of the following counsel:
Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
pa trick@consovoymccarthy.com
Party names:
Donald J. Trump;
Donald J. Trump, Jr.;

Eric Trump;
Ivanka Trump;
Donald J. Trump Revocable Trust;
Trump Organization, Inc.;
Trump Organization LLC;
DJT Holdings LLC;
DJT Managing Member LLC;
Trump Acquisition LLC;
Trump Acquisition, Corp.;
James A. Murphy
Steven D. Feldman
Murphy & McGonigle, PC
1185 Avenue of the Americas
New York, NY 10036
(212) 880-3999
jmurphy@mmlawus.com
Party name: Capital One Financial Corporation
Parvin D. Mayne
Akin Gump Strauss Hauer & Feld LLP
One Bryant Park
New York, NY 10036
(212) 872-1076
pmoyne@akingump.com
Party name: Deutsche Bank AG
I further certify that all parties required to be served have been served.

December 11, 2019

